           Office of Inspector General
           Report

    EPA’s Actions Concerning
Asbestos-Contaminated Vermiculite
        in Libby, Montana
                           2001-S-7
                      March 31, 2001




   Former Site of Screening Plant and Tree Nursery and
            Current Superfund Removal Site

                    On the tape: Asbestos
              Cancer and Lung Disease Hazard
                 Authorized Personnel Only
             Respirators And Protective Clothing
                 Are Required In This Area
Inspector General Staff                     Headquarters Audit Division
 Conducting the Review                              Frances E. Tafer
                                                    Christine Baughman
                                                    Bettye Bell-Daniel
                                                    Carolyn Bowers
                                                    Tina Lovingood
                                                    Gloria Taylor
                                            Engineering and Science Staff
                                                    Stephen Schanamann
                                            Office of Program Evaluation
                                                    Bill Samuel
                                            Office of Counsel
                                                    Eric Hanger
                                            (All in Washington, DC)


Region Covered                              Region 8


Program Offices Involved                    Office of Solid Waste and Emergency Response
                                            Office of Prevention, Pesticides, and Toxic
                                               Substances
                                            Office of Air and Radiation
                                            Office of Research and Development
                                            Office of Enforcement and Compliance Assurance



Photographs were courtesy of: Region 8 and Mel and Lerah Parker.

Picture on the cover: This is a picture of W. R. Grace’s former screening plant location which a
family moved onto in 1993 and owned and operated a tree nursery. Currently, this site is being
cleaned up by EPA’s Superfund removal program. See more pictures and details on page 9 and page
18 of this report.




                                                                               Report 2001-S-7
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460




                                                                               THE INSPECTOR GENERAL



                                          March 31, 2001

MEMORANDUM


SUBJECT:       EPA’s Actions Concerning Asbestos-Contaminated Vermiculite
                 in Libby, Montana
               Report 2001-S-7

TO:            Christine Todd Whitman
               The Administrator


        In response to the June 27, 2000, request from three Environmental Protection Agency
(EPA) offices, this is a report concerning the EPA’s actions related to asbestos-contaminated
vermiculite that was mined near Libby, Montana. The report reviews EPA’s involvement and
identifies barriers, some of which still exist, that may have prevented additional action to protect
the health of those living near the mine. It also contains recommendations for additional EPA
actions which I believe are necessary to address the risks posed by asbestos, vermiculite, and
other asbestos-contaminated materials.

        This report describes issues and recommendations the Office of Inspector General (OIG)
believes will help protect human health and the environment from exposure to asbestos. As such,
it represents the opinion of the OIG. Final determinations on matters in the report will be made
by EPA managers in accordance with established EPA resolution procedures. Accordingly, the
issues described in this report do not necessarily represent the final EPA position and are not
binding upon EPA in any enforcement proceedings brought by EPA or the Department of Justice.

       I have no objection to the further release of this report to the public. I would appreciate a
response to the report within 90 days of the report date. The response should include an action
plan with milestone dates for planned corrective actions. Please track all corrective actions in the
Management Audit Tracking System.




                                                                                   Report 2001-S-7
        My staff and I appreciate the cooperation and courtesy of the EPA staff with whom we
met during the review. We would be glad to discuss the results of our review and our
recommendations in detail, if needed. Should you or your staff have any questions regarding the
report, please call me at 202-260-3137 or Frances E. Tafer at 202-260-2824.




                                                            /S/
                                                      Nikki L. Tinsley


cc:    Michael Shapiro, Acting Assistant Administrator for
          Solid Waste and Emergency Response
       Stephen Johnson, Acting Assistant Administrator for
          Prevention, Pesticides, and Toxic Substances
       Jack McGraw, Acting Regional Administrator, Region 8
       Robert Brenner, Acting Assistant Administrator for Air and Radiation
       Henry Longest, Acting Assistant Administrator for Research and Development
       Sylvia Lowrance, Acting Assistant Administrator for
          Enforcement and Compliance Assurance




                                               2                              Report 2001-S-7
                                    EXECUTIVE SUMMARY

INTRODUCTION

In November 1999, the media ran a series of newspaper articles which reported that miners and
their families in the area of Libby, Montana died or became ill from exposure to asbestos-
contaminated vermiculite ore, which has been mined near Libby since the 1920s. Subsequently,
the media reported that Environmental Protection Agency (EPA) officials knew about the
exposure to asbestos and the dangers it posed, but did not take any action. Following these
articles, EPA officials requested that we conduct this review. Specifically, we sought to
determine:

  ‘    What actions EPA took to address the asbestos exposure to citizens in Libby.

  ‘    Barriers EPA faced, and may continue to face, in addressing the issue.

RESULTS IN BRIEF

Although EPA made attempts to address contaminant asbestos exposure like that in Libby, those
attempts did not result in regulations or other controls that might have protected the citizens of
Libby. EPA has only recently taken specific action to address the asbestos exposure at Libby.
Currently, EPA is focusing on an aggressive Superfund cleanup at Libby and other sites that
received vermiculite from Libby. EPA is not currently addressing prevention of exposures at
other asbestos or asbestos-contaminated ore, rock, and mineral processing sources and related
facilities, such as beneficiation, exfoliation, textile, and manufacturing plants, that use and process
asbestos or contaminant asbestos.

While EPA is making decisions to address serious public health issues, such as asbestos-
contaminated vermiculite, EPA continues to face barriers. These barriers prevented EPA from
sufficiently addressing asbestos-contaminated vermiculite at Libby. EPA’s efforts were hampered
by fragmented authority and jurisdiction within EPA and between it and other agencies. Also,
EPA was hindered internally by ineffective communication. EPA’s ability to determine the degree
of human health risk associated with asbestos-contaminated vermiculite was also impeded by
limitations of science, technology, and health effects data. Furthermore, EPA did not place
emphasis on dealing with asbestos-contaminated vermiculite due to funding constraints and
competing priorities. For example, a 1983 letter sent by an EPA official stated
“... asbestos-contaminated vermiculite is considered a lower priority at this time than problems
posed by friable asbestos-containing materials in school buildings and commercial and industrial
uses of asbestos.”

EPA did not issue regulations under air and toxic substances statutes that could have protected
Libby citizens from exposure to asbestos-contaminated vermiculite. According to EPA, other
issues, such as asbestos in schools and commercial asbestos products, were given higher priority.


                                                   i                                Report 2001-S-7
If barriers, such as fragmented authority and jurisdiction coupled with ineffective communications,
had not existed, EPA might have done more to address asbestos-contaminated vermiculite in the
Libby area and other similar situations. However, these barriers hindered EPA’s actions, and
many of the barriers may still exist and affect EPA’s actions today.

RECOMMENDATIONS

In addition to the continuing response actions related to Libby, we recommend that EPA, in
partnership with other Federal organizations and states, assess asbestos or asbestos-contaminated
ore, rock, and mineral processing sources and facilities (and immediate surrounding areas) that
may be similar although unrelated to Libby. Should the Libby-related work and/or these
assessments find concerns regarding human health and the environment, we recommend that EPA
determine short and long-term actions necessary to protect human health and the environment. In
particular, we recommend that EPA consider the need for:

               ‘      Removal or remedial action under the Superfund program;
               ‘      Regulation of contaminant asbestos under the Clean Air Act;
               ‘      Regulation of asbestos in ambient air under the Clean Air Act;
               ‘      Regulation of products contaminated with asbestos under the Toxic
                      Substances Control Act; and/or
               ‘      Statutory changes to address asbestos and asbestos-contaminated
                      materials.

We also recommend that EPA document the decisions reached and supporting rationale for the
options above and any other decisions or options considered.

AGENCY RESPONSE

On March 27, 2001, the Acting Assistant Administrator for Solid Waste and Emergency
Response provided a consolidated EPA response with suggested changes to the draft report.
Because of the size of the response we did not include it in its entirety in this report, but can
provide it to you upon request. We have, however, excerpted pertinent parts in Appendix 4 with
our comments.




                                                ii                              Report 2001-S-7
                                               TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

CHAPTER 1: INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

CHAPTER 2: EPA ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     CLEAN AIR ACT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     TOXIC SUBSTANCES CONTROL ACT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
     RESOURCE CONSERVATION AND RECOVERY ACT . . . . . . . . . . . . . . . . . . . . . . 8
     SUPERFUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
     CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

CHAPTER 3: BARRIERS EPA FACED IN ADDRESSING ASBESTOS-CONTAMINATED
     VERMICULITE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
     FRAGMENTED AUTHORITY AND JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . 13
     INEFFECTIVE COMMUNICATIONS WITHIN EPA . . . . . . . . . . . . . . . . . . . . . . . . 15
     LIMITATIONS OF SCIENCE, TECHNOLOGY AND HEALTH EFFECTS DATA . 18
     COMPETING PRIORITIES FOR FUNDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
     ASBESTOS COORDINATION TEAM MAY ADDRESS SOME BARRIERS . . . . . . 23
     CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
     RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

APPENDIX 1: SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

APPENDIX 2: FEDERAL STATUTES RELATED TO ASBESTOS . . . . . . . . . . . . . . . . . . 29

APPENDIX 3: KEY DOCUMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

APPENDIX 4: AGENCY RESPONSE AND OIG COMMENTS . . . . . . . . . . . . . . . . . . . . . 41

APPENDIX 5: REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53




                                                               iii                                       Report 2001-S-7
                             ABBREVIATIONS

ATSDR    Agency for Toxic Substances and Disease Registry
CERCLA   Comprehensive Environmental Response, Compensation, and Liability Act
         (Superfund)
EPA      Environmental Protection Agency
MSHA     Mine Safety and Health Administration
NAAQS    National Ambient Air Quality Standard
NESHAP   National Emissions Standard for Hazardous Air Pollutants
OIG      Office of Inspector General
OPPTS    Office of Prevention, Pesticides, and Toxic Substances
ORD      Office of Research and Development
OSHA     Occupational Safety and Health Administration
RCRA     Resource Conservation and Recovery Act
TSCA     Toxic Substances Control Act




                                        iv                          Report 2001-S-7
                                         CHAPTER 1

                                       INTRODUCTION

This report presents the results of our review of the Environmental Protection Agency’s (EPA)
actions to address asbestos-contaminated vermiculite in Libby, Montana. We performed this
review in response to a June 27, 2000, letter to the Inspector General from EPA’s former
Assistant Administrator for Solid Waste and Emergency Response; the former Acting Assistant
Administrator for Prevention, Pesticides, and Toxic Substances; and the former Acting Regional
Administrator for Region 8. This request was also endorsed by Congressional officials from
Montana. Following media reports starting in November 1999 that workers and their families in
the Libby area died or became ill from exposure to asbestos-contaminated vermiculite, EPA
requested that we conduct this review. There were reports that EPA was aware of the situation
and had not taken action.

OBJECTIVES

Our objectives were to determine:

  ‘    What actions EPA took to address the asbestos exposure to citizens in Libby.

  ‘    Barriers EPA faced, and may continue to face, in addressing the issue.

SCOPE AND METHODOLOGY

We reviewed past and present EPA activities relative to asbestos-contaminated vermiculite in
Libby. We conducted our review from July 2000 through January 2001. The review focused on
the activities of several EPA offices. Even though we examined some correspondence between
EPA and W. R. Grace & Company (Grace), the owner/operator of the Libby mine since 1963, we
focused our attentions on EPA activities and not those of Grace.

Given the nature of this request - a review of historical events spanning more than 20 years - we
did not perform all of the activities normally required by professional audit standards, such as
certain aspects of planning the review, gaining an understanding of the management controls, and
evaluating compliance with laws and regulations.

Appendix 1 presents additional information on the scope and methodology.




                                                1                               Report 2001-S-7
BACKGROUND

Libby and the Grace Mine

Libby, Montana is a small city of approximately 3,000 residents. In 1881, the mineral vermiculite
was discovered on a hill located about ten miles northeast of Libby, and vermiculite mining began
in the 1920s. Grace owned and operated the mine from 1963 until its closing in the early 1990s.
While in operation, the mine produced approximately 80% of the world’s supply of vermiculite.
Vermiculite has been used in building insulation, fireproofing, and as a soil conditioner.

On the mine property, the vermiculite ore was milled and beneficiated (partially cleaned) of
impurities. These impurities included another mineral, a toxic form of naturally-occurring
asbestos called tremolite asbestos. After the milling process, the ore was taken to three locations
that were either in or near Libby:

‘ A screening plant where the ore was graded, transported by conveyor belt over the Kootenai
  River, and shipped by railroad to other processing plants around the country.

‘ An exfoliating (expanding) plant, which operated from the 1920s until its demolition in 1949.
  At this plant, it is believed that the beneficiated ore was heated until it expanded, then placed
  into bags for shipping.

‘ A second exfoliating and export plant operated from the 1950s until 1990.

As the ore was mined and processed, dust that included tremolite asbestos was released into the
air. Workers inhaled the asbestos fibers and some contracted asbestosis, a lung disease which can
be fatal. Workers also contracted lung cancer, a cancer of the lung lining called mesothelioma,
and other asbestos-related diseases. Diseases stemming from the exposure to asbestos may not be
apparent until 30 years after the initial exposure. Even though the Libby mine closed in the early
1990s, many residents, including former workers, have been recently diagnosed with asbestos-
related diseases. In addition, a mortality study by the Agency for Toxic Substances and Disease
Registry (ATSDR), for the 20-year period ending in 1998, showed that mortality in the Libby
community resulting from asbestosis was approximately 40-60 times higher than expected.
ATSDR is currently studying lung disease within the Libby community and has released interim
results. The final results of the study are expected in mid 2001.




                                                 2                               Report 2001-S-7
                      Aerial View of W.R. Grace & Company Facilities
Key
1 Location of W.R. Grace & Company mine and mill on Vermiculite Mountain
2 Location of screening plant
3 Location of exfoliation/export plant
  (Location of another exfoliation plant is unknown)
Governmental Agencies’ Initial Involvement with Libby Mine

The first governmental agency to visit the Libby mine was the Montana State Board of Health,
which was enforcing the state’s Industrial Hygiene Act of 1939. This agency began inspecting the
mine in 1941 and found problems with the amount of dust generated by the activity. In a 1956
inspection report, asbestos was identified as a component of the dust in the mine and, in the
opinion of the state inspector, exceeded the guidelines for asbestos. In a 1962 report, the
asbestos was identified as tremolite. By this time, state officials were consulting with the Federal
Department of Health, Education, and Welfare about the asbestos. The Montana State Board of
Health and its successor agencies continued to inspect the mine for air violations.




                                                 3                               Report 2001-S-7
By 1961 the Federal Department of the Interior, Bureau of Mines, had begun performing
inspections at Libby. In October 1971, the Bureau of Mines issued a notice to Grace about the
excessive asbestos dust. However, in October 1975, the Mining Enforcement and Safety
Administration (the successor to the Bureau of Mines) terminated the notice following the
installation of a new wet mill by Grace to control excess dust.

EPA’s Statutory Authorities and Associated Offices

In 1970, EPA was created with a mission to protect the environment and public health. For our
review, we evaluated EPA’s authority under four major laws:

       ‘ Clean Air Act (originally enacted in 1970), administered by EPA’s Office of Air and
         Radiation.
       ‘ Toxic Substances Control Act (originally enacted in 1976), administered by EPA’s
         Office of Prevention, Pesticides, and Toxic Substances.
       ‘ Resource Conservation and Recovery Act (originally enacted in 1976), administered
         by the Office of Solid Waste and Emergency Response.
       ‘ Comprehensive Environmental Response, Compensation, and Liability Act
         (or Superfund) (originally enacted in 1980), also administered by the Office of Solid
         Waste and Emergency Response.

Details on these laws are in Appendix 2.

In addition, EPA’s Office of Enforcement and Compliance Assurance oversees compliance with
U.S. environmental laws and encourages the regulated community to focus on pollution
prevention. EPA’s Office of Research and Development is responsible for the research and
development needs of the EPA's operating programs. EPA regional offices are responsible for
implementing, or overseeing states’ implementation of environmental laws within their
jurisdiction. EPA’s Region 8 includes Montana.




                                               4                              Report 2001-S-7
                                          CHAPTER 2

                                         EPA ACTIONS

Although EPA made attempts to address contaminant asbestos exposure like that in Libby, those
attempts did not result in regulations or other controls that might have protected the citizens of
Libby. EPA has only recently taken specific action to address the asbestos exposure at Libby.
Currently, EPA is focusing on an aggressive Superfund cleanup at Libby and other sites that
received Libby vermiculite. EPA is not currently addressing prevention of exposures at other
asbestos or asbestos-contaminated ore, rock, and mineral processing sources and related facilities,
such as beneficiation, exfoliation, textile, and manufacturing plants, that use and process asbestos
or contaminant asbestos.

EPA was prevented by various barriers from sufficiently addressing asbestos-contaminated
vermiculite. Fragmented authority and jurisdiction with other agencies and within EPA, combined
with ineffective communication, made taking actions difficult. Limitations of science, technology,
and health effects data provided impediments in EPA’s determining the degree of health risk at
Libby. Furthermore, due to funding constraints and competing priorities, EPA did not place
emphasis on dealing with asbestos-contaminated vermiculite. For example, a 1983 letter sent by
an EPA official stated “... asbestos-contaminated vermiculite is considered a lower priority at this
time than problems posed by friable asbestos-containing materials in school buildings and
commercial and industrial uses of asbestos.”

Following is a discussion, by statute, of the options available to EPA and the actions taken. In
Chapter 3, we discuss the barriers encountered by EPA in dealing with asbestos-contaminated
vermiculite.

CLEAN AIR ACT

In 1973, EPA issued the first regulation controlling emissions from asbestos-processing facilities
and other sources of asbestos. The regulation, the National Emissions Standard for Hazardous
Air Pollutants (NESHAP) for asbestos covers milling to produce commercial asbestos,
manufacturing, and fabrication products that contain commercial asbestos; renovation and
demolition of structures containing regulated asbestos-containing material; and asbestos waste
disposal requirements. The asbestos NESHAP does not regulate materials (such as quarried rock
and gravel) having asbestos as a contaminant or the mining of ores contaminated with asbestos,
such as the vermiculite mined at Libby.

In the early 1970s, little was known about the extent and effects of contaminant asbestos. Thus,
EPA focused on commercial asbestos products (materials containing asbestos that gave the
product its value), such as asbestos brake linings. EPA officials said that once they finished the
commercial asbestos NESHAP, they intended to revisit the area of contaminant asbestos and, if
needed, regulate it under a separate NESHAP. According to EPA, a separate NESHAP for


                                                 5                               Report 2001-S-7
contaminant asbestos would have regulated emissions from beneficiation processes and exfoliation
plants, such as those operated near the Libby mine.

In March 1987, the Office of Air and Radiation evaluated 88 earth materials and concluded in a
report, “Asbestos in Earth Materials,” that vermiculite was one of four materials, in addition to
asbestos itself, that had a high possibility of containing asbestos. For three years following that
report, the Office of Air and Radiation pursued steps toward regulation by requesting information
from industry (including the mine at Libby), conducting preliminary source assessments for
vermiculite, and completing human exposure models (estimates of risk to human health). In early
1990, an Office of Air and Radiation project status report stated that “further investigation in
contaminant vermiculite is necessary.” However, the effort to regulate contaminant asbestos
ended because resources were needed to implement the Clean Air Act Amendments of 1990,
including development of NESHAPs for more than 150 national categories of industrial sources,
emitting any of 188 hazardous air pollutants. Because EPA continues to learn about adverse
health effects from contaminant asbestos, we believe EPA should reconsider regulating
contaminant asbestos emissions from sources, such as exfoliation and beneficiation processes.

While EPA regulates environmental emissions of commercial asbestos through the NESHAP, it
does not have a National Ambient Air Quality Standard (NAAQS) for asbestos. Ambient air is
the unconfined portion of the atmosphere, that is, open air. According to EPA’s February 1985
“Exposure Assessment for Asbestos-Contaminated Vermiculite,” exposure to asbestos-
contaminated vermiculite occurs via ambient air near the sources. However, a local official told
us that the air in Libby was not tested for asbestos because there was no ambient air standard for
asbestos. Therefore, asbestos exposure could not be detected and assessed for potential adverse
health effects.

We believe that EPA should reconsider the need for regulation for contaminant asbestos
(NESHAP) and consider regulation for asbestos in ambient air (NAAQS) under the Clean Air
Act.

TOXIC SUBSTANCES CONTROL ACT

Under the Toxic Substances Control Act (TSCA), EPA may take a variety of actions to reduce
the risk posed by a particular chemical substance. During the early 1980s, EPA considered
asbestos-contaminated vermiculite for such action, and generated several reports on the subject.
However, none of them triggered immediate action under TSCA. Except for a 1991 health
assessment, little was done about vermiculite under TSCA between 1983 and 1999. In 2000,
EPA released a study of asbestos in gardening products containing vermiculite.




                                                 6                               Report 2001-S-7
EPA’s Authority Under TSCA

TSCA was enacted in 1976 to protect human health and the environment from unreasonable risk
of injury that may be posed by the manufacture, processing, distribution in commerce, use, or
disposal of chemical substances and mixtures. TSCA provides EPA with various tools for
identifying chemicals that pose an unreasonable risk and for mitigating those risks. For example,
EPA may require the use of warning labels; limit or prohibit the manufacture, use, distribution,
and disposal of chemical substances; and/or commence judicial action to enforce TSCA’s
provisions.

EPA Explored Possibilities in the Early 1980s

In November 1978, a commercial user of vermiculite from the Libby mine reported to both EPA
and the Occupational Safety and Health Administration (OSHA) that the user’s employees were
suffering adverse health effects. The user surmised that the problems may have been related to
the asbestos in the vermiculite. In a 1980 letter to Grace, EPA’s Office of Pesticides and Toxic
Substances (the predecessor to the current Office of Prevention, Pesticides, and Toxic
Substances) stated that EPA was concerned about the risk to human health resulting from
asbestos contamination of vermiculite. Thus, EPA decided to perform an analysis to determine
whether EPA should initiate a regulatory investigation to control the material under the TSCA.

This analysis was to be a multistage process that would provide a basis for initiating suitable
regulatory actions under TSCA or other relevant authorities. At the end of each stage, a decision
would be made regarding whether to continue on to the next stage. EPA could decide at any
given stage to: drop the chemical from consideration due to low hazard potential, subject it to
testing requirements to fill critical data gaps, or refer it to another program or agency that has the
authority to deal with any apparent hazards.

Between June 1980 and August 1982, the analysis resulted in a series of reports related to
asbestos-contaminated vermiculite. Appendix 3 lists some of these reports and provides related
information. Most of the reports indicated that there was a lack of data on both exposure to
asbestos-contaminated vermiculite and its adverse health effects. Further, the reports identified
problems in sampling, analysis, and reproducibility of data regarding low levels of asbestos in
vermiculite which made it difficult to acquire data on exposure and health effects. None of the
reports triggered EPA to take immediate action under TSCA.

In August 1982, EPA completed a draft disposition paper regarding asbestos-contaminated
vermiculite. The paper concluded that there were significant adverse health effects associated
with past occupational exposure probably caused by inhalation of the asbestos that contaminated
the vermiculite. The paper also stated that the public was generally unaware that vermiculite was
likely to be contaminated with asbestos. In addition, it stated that there was no regulatory control
of consumer use, and some consumer uses may pose a significant health hazard. EPA officials
were unable to find a “final” version of the disposition paper. The disposition paper proposed


                                                  7                                Report 2001-S-7
recommendations that addressed testing uncontaminated vermiculite, disseminating information
on the activities of various Federal agencies, and measuring the level of consumer exposure to
asbestos in selected vermiculite products. Although these recommendations could have helped
EPA address Libby, we found no documentation to confirm that EPA intended to implement the
recommendations.

Except for a 1991 health assessment discussed in Appendix 3, EPA did little about vermiculite
under TSCA between 1983 and 1999. In 1983, EPA’s Acting Assistant Administrator for
Pesticides and Toxic Substances stated in a letter that “... asbestos-contaminated vermiculite is
considered a lower priority at this time than problems posed by friable asbestos-containing
materials in school buildings and commercial and industrial uses of asbestos.” The reasons given
in the letter for the lower priority were that EPA believed that the vermiculite industry had made
improvements toward worker safety and lowering asbestos content in vermiculite products. This
was based, in part, on an EPA study that found that the amount of asbestos fibers in vermiculite
were reduced during the beneficiation process.

In summary, despite the initial effort to study the issue, EPA took no regulatory action to control
asbestos-contaminated vermiculite under TSCA during this period.

Recent TSCA Action

In January 2000, due to citizens’ concerns, EPA started sampling and analyzing lawn and garden
products that contained vermiculite to determine whether they were contaminated with asbestos.
The results showed that some vermiculite products currently on the market contain asbestos.
EPA’s report, “Sampling and Analysis of Consumer Garden Products That Contain Vermiculite”
(EPA 744-R-00-010, Aug 2000), concluded that vermiculite-containing garden products present a
minimal health risk to consumers.

Additional Actions Needed

As noted above, most of the prior reports indicated that there was a lack of data on both exposure
to asbestos-contaminated vermiculite and its adverse health effects; and there were problems
getting such data. Some of these data gaps may be filled by the gardening products study and the
work described in the “Superfund” section below. With the updated information, we believe that
EPA should consider the need for regulation of products contaminated with asbestos under
TSCA. EPA may also consider statutory changes if such a regulation under TSCA is not
practicable.

RESOURCE CONSERVATION AND RECOVERY ACT

The disposal of the asbestos-contaminated vermiculite ore waste from the Grace mine at Libby
was exempt from the hazardous waste requirements under the Resource Conservation and
Recovery Act (RCRA). In 1980, Congress amended RCRA to temporarily exempt from the


                                                 8                               Report 2001-S-7
hazardous waste regulation (Subtitle C) solid waste from ore and mineral extraction,
beneficiation, and processing. The amendment directed EPA to develop hazardous waste
regulations for such waste material or determine whether the exemption should continue.

In 1985, EPA reported to Congress that mining waste exhibits hazardous characteristics, waste
management practices have caused environmental damage, and the range of risk from mining
waste is broad. However, in 1986, EPA published a regulatory determination stating that RCRA
regulation over extraction and beneficiation waste was “unwarranted because mining wastes tend
to be disposed of in arid climates, facilities and wastes were located in sparsely populated areas
where human contact is minimal, and waste volumes are high.” This determination, upheld in
court challenges, remains in effect.

SUPERFUND

Although wastes from ore and mineral extraction are excluded from hazardous waste
requirements under RCRA, contamination from these wastes can be addressed under the
Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA), also
known as Superfund. Mining companies may be liable under CERCLA for the release or threat of
release of hazardous substances into the environment.

CERCLA Section103(c) Applicability to the Libby Mine

After December 11, 1980, CERCLA Section 103(c) required that owners of a facility that stored,
treated, or disposed of known hazardous substances or had a suspected release of such substances
should notify EPA within 180 days. After facilities notify EPA, CERCLA requires that EPA
conduct a preliminary assessment of the facility within one year of notification. Although asbestos
is a hazardous substance under CERCLA, according to
EPA, Grace did not notify EPA under this section.
Thus, the Libby mine and the screening and expanding
plants could not have been considered for Superfund
action.

Recent Superfund Actions

In November 1999, EPA staff went to Libby and met
with state and local officials to learn about the situation
and determine next steps. EPA conducted an initial
inspection of the former mine and processing facilities,
held interviews, and collected samples. The preliminary
assessment and site inspection results confirmed that
there were a large number of current and historic cases
of asbestos-related diseases centered around Libby. The
results also showed that high amounts of asbestos-
                                                              Screening Plant Removal Site

                                                  9                              Report 2001-S-7
contaminated vermiculite remained at the screening plant, the export plant, the mine’s tailings
pile/pond, and in residential and shared community areas.

From December 1999 through April 2000, EPA collected samples of air, dust, soil, and insulation
to: (1) determine whether there was a need for response actions in residential and shared
community areas in and around Libby, (2) characterize the extent and severity of asbestos
contamination, and (3) determine the risk to human health. The greatest emphasis was placed on
the collection and analysis of air samples. Most of the air samples were collected using a
stationary air monitor located in the principal living areas of residential homes. The preliminary
testing results revealed tremolite asbestos fibers in some samples.

                                                             In June 2000, removal actions were
                                                             started at the screening and export
                                                             plants.

                                                             In December 2000, EPA identified
                                                             243 sites that may have received
                                                             vermiculite from Libby, and started to
                                                             perform evaluations on each site.
                                                             EPA found that approximately 6 to 8
                                                             percent of the 243 sites that had been
                                                             evaluated as of December were
                                                             actively processing vermiculite, and
                                                             further response actions were needed
                                                             on 16 of the sites. EPA is working
                                                             with the Mine Safety and Health
                                                             Administration (MSHA) to identify
                                                             additional asbestos-contaminated sites
Export Plant Removal Site
                                                             not associated with Libby.

In 2001, EPA plans to conduct additional residential sampling in Libby to more specifically
measure any asbestos exposure during residents’ routine activities. EPA also plans to measure
asbestos levels in the air and compare those measurements to data collected from the stationary
air monitors at the same location. The data will be used to help assess health risks to people who
engaged in the activities reviewed during the study.

Additional Actions Needed

Although we concentrated our efforts on asbestos-contaminated vermiculite, it came to our
attention that other types of mines and related processing operations (such as beneficiation,
exfoliation, textile, and manufacturing plants) are also at risk for contaminant-asbestos exposure.
Such exposures could be causing asbestos-related diseases near the mines and operations.
Currently, ATSDR is completing the medical testing of individuals in Libby, and the preliminary


                                                 10                              Report 2001-S-7
results of the testing show that people are becoming ill who had no apparent occupational
exposure. EPA officials told us that ATSDR is also starting a nationwide study of cancer registry
data to identify unusual spikes or clusters of cancer. For such clusters, ATSDR will determine if
there is any relationship with asbestos. The information from these ATSDR studies, when
combined with the information to be provided by MSHA on additional asbestos-contaminated
sites, could be evaluated by EPA in order to assess and address sites unrelated to Libby that may
pose a significant risk to human health.

The EPA evaluation and any subsequent actions may take significant resources and may not be
consistent with standard operating procedures of the Superfund program, which does not typically
conduct active site discovery. We believe that EPA should partner with other Federal
organizations and states to leverage resources to assess asbestos and asbestos contamination.

CONCLUSION

EPA did not issue regulations under air and toxic substances statutes that could have protected
Libby citizens from exposure to asbestos-contaminated vermiculite. According to EPA, other
issues (such as asbestos in schools, commercial asbestos products, and implementation of the
Clean Air Act Amendments of 1990), were given higher priority. More recently, EPA began
actions at Libby under its Superfund program to sample air, dust, soil, and insulation, and to clean
up contaminated sites. Additionally, EPA’s Superfund program is currently evaluating, and if
necessary, addressing 243 sites across the country that received asbestos-contaminated ore or
vermiculite from Libby. We believe EPA’s actions are commendable and should continue.
However, we believe there may be other mines and related processing operations, similar to but
unrelated to Libby, where citizens’ health and the environment could be affected.

RECOMMENDATIONS

In addition to the continuing response actions related to Libby, we recommend that EPA, in
partnership with other Federal organizations and states, assess asbestos or asbestos-contaminated
ore, rock, and mineral processing sources and facilities (and immediate surrounding areas) that
may be similar although unrelated to Libby. Should the Libby-related work and/or these
assessments find concerns regarding human health and the environment, we recommend that EPA
determine short and long-term actions necessary to protect human health and the environment. In
particular, we recommend that EPA consider the need for:

               ‘       Removal or remedial action under the Superfund program;
               ‘       Regulation of contaminant asbestos under the Clean Air Act through
                       NESHAP(s);
               ‘       Regulation of asbestos in ambient air under the Clean Air Act through a
                       NAAQS;
               ‘       Regulation of products contaminated with asbestos under the Toxic
                       Substances Control Act; and/or


                                                11                               Report 2001-S-7
‘   Statutory changes to address asbestos and asbestos-contaminated
    materials.




                            12                             Report 2001-S-7
                                            CHAPTER 3

                         BARRIERS EPA FACED IN ADDRESSING
                       ASBESTOS-CONTAMINATED VERMICULITE

EPA’s attempts to address contaminant asbestos were met with barriers -- factors that hindered
EPA’s mission to protect human health and the environment. If these barriers had not existed,
EPA might have done more about asbestos-contaminated vermiculite in the Libby area. To the
extent these barriers still exist, they may hinder future EPA efforts to prevent or alleviate similar
problems at mine sites like Libby. The chief barriers were:

       ‘    Fragmented authority and jurisdiction;
       ‘    Ineffective communications within EPA;
       ‘    Limitations of science, technology, and health effects data; and
       ‘    Competing priorities for funding.

In October 2000, EPA established an Asbestos Coordination Team to serve as EPA’s focal point
to deal with asbestos contamination.

FRAGMENTED AUTHORITY AND JURISDICTION

Multiple Federal agencies have control over specific, often overlapping aspects of asbestos
regulation. Each agency uses the statutes and regulations that it administers as legal authority to
act, and these authorities sometimes cause agencies to differ with each other. In addition, several
program offices within EPA share responsibility for asbestos regulation based on the existing legal
framework and do not always sufficiently coordinate their efforts.

Multiple Federal Agencies Regulate Various Aspects of Asbestos

The Federal laws related to asbestos (see Appendix 2) provide Federal agencies with authority to
regulate specific -- yet often overlapping -- aspects relating to asbestos. For example, the
Department of Labor regulates occupational and construction activities involving asbestos
through OSHA, under the Occupational Safety and Health Act, and the mining of asbestos
through the Mine Safety and Health Administration, under the Mine and Nonmetallic Mine Safety
Act. However, the authority of the Department of Labor does not cover state and local
government employees. Thus, EPA regulates asbestos construction activities when state and
municipal employees are doing the work. In addition, EPA regulates environmental emissions of
asbestos (not as a contaminant) but does not have an ambient (in the air) standard for asbestos.

Differing regulatory authorities sometimes necessitated discussions between agencies to resolve
their authority to regulate a specific asbestos use and process. For example, EPA officials said
that when they began to work on the first asbestos NESHAP, it included drilling at mines.



                                                  13                                Report 2001-S-7
However, EPA removed drilling at mines from the NESHAP because EPA and MSHA jointly
decided that mining activities fell under MSHA’s purview.

Different Federal Definitions of Asbestos

The approach to defining “asbestos” varies among agencies, often depending on the agency’s
mission. As early as 1977, several Federal agencies with responsibility for regulating asbestos
were working separately toward a definition of asbestos. The agencies generally agreed the
definition should be mineralogically correct and reflect health concerns. However, they could not
agree on a specific definition, and continue to use different ones. For example:

‘      OSHA’s proposed definition reflected its concern for the health aspects of asbestos and
       was based on experimental findings associated with fiber structure.

‘      The Consumer Products Safety Commission’s definition was based on mineralogical
       composition that defines asbestos as “a group of mineral fibers composed of hydrated
       silicates, oxygen, hydrogen, and other elements such as... tremolite asbestos.”

‘      EPA’s definition specifies asbestos as asbestiform varieties of serpentinite (chrysotile),
       riebeckite (crocidolite), cummingtonite-grunerite, anthophyllite, and actinolite-tremolite.

Different Governmental Standards for Asbestos

Different values are applied by various agencies, and within EPA itself, to regulate asbestos.
Consequently, multiple Federal standards exist for asbestos, depending on the target population
(i.e., miners, industrial workers, the general public, and sensitive populations such as children)
and the agency or office having the authority to promulgate regulations protecting each
population. Four of the most common standards are listed below, followed by the threshold limit
values recommended by the American Conference of Governmental Industrial Hygienists, a
professional organization of occupational health and safety specialists who work for governmental
entities.




                                                14                               Report 2001-S-7
                               Entity                                            Values

 EPA (NESHAP)                                                     No visible emissions

 EPA (Asbestos Hazard Emergency Response Act)                     0.01 fibers per cubic cm.
                                                                  (Reoccupancy only)

 OSHA                                                             0.1 fibers per cubic cm.

 Mine Safety and Health Administration                            2.0 fibers per cubic cm.

 American Conference of Governmental Industrial                   0.5 fibers per cubic cm. (Amosite)
 Hygienists (as of 1995)                                          0.2 fibers per cubic cm. (Crocidolite)
                                                                  2.0 fibers per cubic cm. (Chrysotile)
                                                                  2.0 fibers per cubic cm. (Other forms)


Multiple Offices Within EPA Implement Different Authorities

Within EPA, the following offices implement programs related to asbestos regulation and
enforcement, as noted in Chapter 1 and Appendix 2.

               Office                                             Authority

 Office of Prevention, Pesticides,      Manages the toxic substances program implementing TSCA
 and Toxic Substances

 Office of Air and Radiation            Manages the air program implementing the Clean Air Act

 Office of Solid Waste and              Implements RCRA and Superfund programs
 Emergency Response

 Office of Water                        Manages the water programs implementing the Clean Water Act
                                        and Safe Drinking Water Act

 Office of Enforcement and              Oversees enforcement activities, which are performed primarily
 Compliance Assurance                   by the regional EPA offices or delegated state offices

 Office of Research and                 Conducts both basic research under its own auspices and
 Development                            research for other program offices at their request


When multiple organizations implement different authorities regarding a single issue, effective
communications are essential. However, this did not always occur, as discussed below.

INEFFECTIVE COMMUNICATIONS WITHIN EPA

The problems with fragmented authority and jurisdiction within EPA might have been overcome
by more effective communication. There were breakdowns in communications between program
and regional offices, and between program offices and the Office of Research and Development.
Furthermore, program offices did not sufficiently document decisions, and there was insufficient



                                                    15                               Report 2001-S-7
communication within EPA regarding whether the Libby mine should have been designated a
Superfund site.

Communication Between Program and Regional Offices

The program offices at EPA headquarters, which generally develop program regulations and
guidance, rely on the regional offices to implement Federal environmental laws. In doing so, the
regional offices work with state, interstate, and local agencies; industry; and academic institutions.
Good communications between the headquarters and field segments of EPA are essential to the
accomplishment of EPA’s mission. However, Region 8 officials said they were not aware of
important information from Headquarters about the asbestos-contaminated vermiculite.

From 1977 through 1985, a predecessor of the Office of Prevention, Pesticides, and Toxic
Substances (OPPTS) generated several reports regarding asbestos-contaminated vermiculite. An
internal OPPTS memorandum stated the intent to distribute the reports throughout EPA, and
OPPTS staff believed they did so. Further, OPPTS staff said regional officials were informed
about activity in the toxic substances program through regular visits, EPA publications, and
newsletters.

Region 8 officials, however, said they did not become aware of the reports until 1999 when the
media brought the asbestos health-related problems in Libby to their attention. We found
evidence that Region 8 officials knew about at least one of the OPPTS reports. According to a
1984 letter, an official in Headquarters was forwarding the June 1980 “Priority Review Level 1 -
Asbestos-contaminated Vermiculite” to Region 8. According to date stamps, the Region 8 Air
and Hazardous Materials Division received this letter on November 7, 1984, and it was also
received by the Region 8 Montana office on November 15, 1984. The letter stated that the report
discloses:

       ... there is evidence that asbestos is present in vermiculite obtained from W. R.
       Grace & Company’s Libby, Montana, mine, a major domestic supplier of
       vermiculite, and that the health problems experienced by the employees of one
       processor of vermiculite from the Libby mine (O. M. Scott & Sons) are
       comparable with those associated with asbestos exposure.

Communication Between Program Offices and Office of Research and Development

To obtain research and technical assistance, program officials must work closely with the Office
of Research and Development (ORD). According to ORD officials, ORD annually solicited
requests for research from program offices and decided which projects it could undertake based
on budget, importance to regulatory development, ORD strategic planning, and other
considerations. However, we found that the Office of Air and Radiation expected ORD to take
the lead in developing and updating asbestos sampling and analysis protocols. It appeared that the
ORD and the Office of Air and Radiation both waited for the other to act first.


                                                 16                                Report 2001-S-7
Documentation of Decisions Within Program Offices

It appears that many of the decisions by EPA officials about asbestos-contaminated vermiculite
made years ago were not adequately documented, which is a barrier to continuity and
accountability. Because such decisions and their rationale were often not documented, it was
difficult to reconstruct exactly what happened and why.

In one instance in 1981, OPPTS issued a decision paper with various recommendations regarding
regulatory proceedings under TSCA for asbestos-contaminated vermiculite. However, EPA
officials could not locate documentation to indicate what actions they took regarding the
recommendations.

In another instance, a 1980 memorandum stated that vermiculite did not merit regulation under
section 4(f) of TSCA. If that section had applied, EPA would have put on a “fast track” an
analysis to determine whether to start a regulatory investigation to control vermiculite under
TSCA. The reason for the decision was not documented in the memorandum, and because it
happened so long ago, the OPPTS official who had signed the 1980 memorandum said he could
not recall exactly why EPA determined section 4(f) did not apply.

Also, in a third instance, as discussed in the “Clean Air Act” section, Office of Air and Radiation
officials said the effort to regulate contaminant asbestos ended because resources were needed to
implement the Clean Air Act Amendments of 1990. However, there was no documentation
available to confirm this was the reason.

To ensure continuity and accountability, we believe EPA should adequately document decisions,
including the rationale.

Communication Related To Enforcement Actions

With better communications regarding enforcement actions, EPA officials would have had the
opportunity to consider a Superfund action sooner than 1999, when the mine site received media
attention.

In March 1992, the State of Montana, which was delegated EPA’s air enforcement program,
conducted an inspection in Libby based on a citizen complaint. The citizen had observed a Grace
employee, who was not wearing a mask, walking out of a building which was being demolished
and which the complainant believed to be contaminated with asbestos. Montana state officials
conducted an inspection of the facility and found that the facility had not notified EPA prior to
demolishing a building contaminated with asbestos, as required. EPA referred the violation to the
U.S. Department of Justice, and in September 1994, Grace was fined $510,000 for the violation.

In addition, one of the state air inspectors relayed concerns about other possible violations from
the 1992 inspection to a state official involved with Superfund. However, we found no evidence


                                                17                               Report 2001-S-7
that the concerns were evaluated, that an evaluation resulted in further action by the state, or that
EPA was notified of any potential concerns. We believe the concerns raised in the letter should
have been referred to the Superfund program.

Also, in 1994 and again in 1996, a Libby
citizen sent letters to EPA stating that a family
with children was living on the site of the
former screening facility. (The family had
moved onto the property in October 1993.)
Further, the family was operating a tree
nursery with greenhouses that contained large
fans for ventilation and air. The citizen also
expressed concern about dust from a road
next to the site that contained asbestos. The
citizen was concerned that the family and their
customers were being exposed to asbestos in
the air. (According to a news article, in May
2000, EPA found widespread contamination at
the site and the family was ordered to leave
their home and belongings because of asbestos Road Dust Near the Tree Nursery (1996) and
contamination.)                                           Former Screening Plant and the
                                                          Current Superfund Removal Site
Both of the letters from the citizen notified
EPA of the threat of a release. In responding to the 1994 letter, EPA referred the concerns to the
state which inspected the facility for violations of the Clean Air Act. In responding to the 1996
letter, EPA stated its assumption that the state was overseeing the facility. CERCLA requires that
EPA conduct a preliminary assessment within one year after the receipt of the notification of a
release of a hazardous substance. We found no documentation that EPA conducted such an
assessment, which may have initiated an earlier Superfund action. We believe the concerns raised
in the 1994 letter should have been referred to the Superfund program.

LIMITATIONS OF SCIENCE, TECHNOLOGY AND HEALTH EFFECTS DATA

Limitations of science and technology represented another barrier EPA faced in determining how
to protect Libby’s citizens from asbestos-related diseases. As part of its mission, EPA intends
that efforts to reduce environmental risk should be based on the best available scientific
information. Regarding asbestos in general and asbestos-contaminated vermiculite in particular,
the technology for identifying the presence and amount of asbestos has limitations, even though it
is progressing. EPA also needs information that connects exposure to specific concentrations of
asbestos with adverse health effects. It is usually the responsibility of the industry to obtain and
provide such data to EPA. Grace, which was a major supplier of vermiculite, provided EPA with
significant health effects information on asbestos-contaminated vermiculite in 1986.



                                                 18                                Report 2001-S-7
Another complicating factor in determining health effects of asbestos exposure is the lengthy
latency period. The latency period is the time from the first exposure until the onset of identifiable
symptoms, and this latency period for asbestos-related cancers averages 20 years. However,
fibrosis (asbestosis) can manifest itself much sooner. Because of the latency period for asbestos-
related diseases, many people had already been exposed before the danger was confirmed. When
this lengthy latency period is combined with the difficulty in detecting the often invisible fibers,
many people may be exposed without realizing it.

Identification of Asbestos

Asbestos is a mineral in the form of fibers that can be microscopic in size and can split into even
smaller fibers (fibrils). This splitting can continue down to the molecular level. When fibers
become airborne, they can remain suspended in the air indefinitely. Consequently, asbestos may
be found in samples of air or in samples of other solid material, such as asbestos-contaminated
vermiculite. The asbestos fibers must be identified as such and counted or otherwise quantified.

Asbestos that is a small fraction of solid material (that is, in bulk samples) is especially hard to
sample and measure. This was recently demonstrated during OPPTS’ efforts to measure asbestos
in garden products containing vermiculite. There was a great deal of variability in the observed
results. OPPTS found that, in some cases, one sample of a product indicated the presence of
asbestos while another sample from the same product did not. OPPTS believed the variability
was due to various factors, such as: (1) the asbestos content of the vermiculite products appears
to be close to the limit of detection; (2) only a small portion (0.01 grams) of each product is
actually viewed under the microscope; (3) the bagged product is not evenly mixed; (4) different
processing facilities use different dust removal techniques; and (5) the asbestos content of
vermiculite ore from different mines and even within the same mine varies.

Measurement of Asbestos

Because much of asbestos is invisible to humans, a microscope is needed to see the fibers and
fibrils, and how much is seen depends on the type of microscope. Initially, EPA had no
agreement on the protocols for sampling and analyzing asbestos fibers or for identifying asbestos
in bulk samples, and different methods were used. For example:

‘ The Office of Research and Development helped develop a protocol for polarized light
  microscopy, an inexpensive optical method for identifying asbestos fibers (about $35 per
  sample in the 1980s). This method is limited because it counts only a small fraction of the
  total fibers that are large enough to identify using an optical microscope (about 5%). Costs
  have since diminished to about $5 per sample.

‘ Another optical analysis method, used for counting fiber concentrations in an air stream, is
  phase contrast microscopy. This method is also inexpensive and has significant limitations,



                                                 19                               Report 2001-S-7
   since it is intended for counting fibers and does not distinguish between asbestos fibers and
   other non-asbestos fibers of similar size.

‘ Transmission electron microscopy is more efficient than the other two alternatives noted,
  since it can identify fibers at 30,000 times magnification, as compared to 400 times with an
  optical microscope. However, in 1985, there were only nine such instruments in the United
  States, most of which were used at hospitals for medical research. Samples had cost about
  $1,000 each to analyze, and took a week or more to prepare and analyze. The costs have
  since diminished to about $100 each, and turnaround time is now about six hours. However,
  even this method has a limitation inherent in sampling - it cannot identify, to a statistical
  certainty, concentrations less than 1% in a bulk sample.

Even when asbestos fibers can be detected, a question arises about which of the fibers, fibrils, or
pieces should be counted. The analysis of a sample could limit the count to fibers of a certain size
and shape. The size and shape are significant because some fibers are thought to more adversely
affect health than others. When EPA was revising the asbestos NESHAP, industry officials
opposed including contaminant asbestos, and debated about the size and shape of fibers and their
relative health effects. EPA officials said that, at the time, they could not refute such arguments
and, therefore, EPA limited the standard to commercial asbestos.

Sampling location can be an additional problem. For example, according to former Grace
employees, Grace regularly sampled the air around the mine and related facilities because of Mine
Safety and Health Administration requirements. However, the air elsewhere in the county was
not tested for asbestos. Because there was no standard for asbestos in the ambient air, no funds
were available for such sampling, even though it would have been useful in assessing the potential
for health effects (e.g., in a risk assessment), or in assessing the association with health effects
(e.g., in an epidemiological analysis of the exposed population).

Health Effects Data

EPA did not receive health effects data from Grace until 1986. Generally, EPA cannot regulate a
substance under TSCA unless studies demonstrate an unreasonable risk to human health or the
environment. TSCA gives EPA the means to identify harmful substances. With some exceptions,
anyone who makes or uses a chemical substance or mixture must first inform EPA, and must
develop adequate data on the substance’s effect on human health and the environment. If
adequate data do not exist about a substance believed to be harmful, EPA may require testing to
develop data on the health and environmental effects of the substance. Regardless, anyone who
learns that a substance they make, use, or distribute presents a substantial risk of injury to health
or the environment must immediately inform EPA. EPA has interpreted these requirements to
mean that it will not routinely perform tests on substances covered under TSCA. Instead, EPA
usually relies on those who make or use a substance to develop adequate data on the substance’s
effect on human health and the environment.



                                                 20                               Report 2001-S-7
As early as the 1960s, requests had been made to Grace by both governmental and non-
governmental entities for information relative to asbestos-contaminated vermiculite. Grace
notified EPA in 1983 that it commissioned mortality and morbidity studies of its workers at the
Libby mine, and gave the results to EPA in 1986. These were the first major studies on the health
effects of asbestos-contaminated vermiculite that the industry provided to EPA. These studies
indicated that there was an increasing likelihood of adverse health effects with increasing duration
of exposure.

COMPETING PRIORITIES FOR FUNDING

EPA was faced with many issues of concern at the same time as asbestos-contaminated
vermiculite. EPA had to consider funding and resources for a large number of issues during the
time it became aware of the potential need for action in Libby.

EPA Resources

Resources come to EPA through appropriation laws passed by Congress. They are based on an
annual budget proposal prepared by EPA officials, combined with those of other Executive
agencies, and presented to Congress by the President. The budget proposal defines the goals and
objectives toward which the EPA intends to work during the upcoming fiscal year, and the
resources (both dollars and staffing) the EPA believes are necessary to accomplish these goals and
objectives. When preparing a budget proposal, officials are given a target amount that is generally
based on funding levels authorized at the time. Resources may be reallocated to increase some
programs, decrease others, and add new programs.

Funding Justifications

The justifications given to Congress for the EPA budgets of the early 1980s described the
activities undertaken by the toxic substances program. Since it was a relatively new program,
much of the effort was focused on establishing the program. The budget justifications also
showed that the EPA was performing work to comply with court-imposed schedules related to
the program.

Other Priorities

Budget justifications identified some specific chemicals being addressed by the program, and
included asbestos as a priority for the toxic substances program. However, asbestos-
contaminated vermiculite was not identified as part of that priority, since emphasis was placed in
other areas. This was confirmed in a June 1983 letter from EPA’s toxic substances program in
response to questions about a September 1982 EPA report on asbestos-contaminated vermiculite.
The letter stated, “... asbestos contaminated vermiculite is considered a lower priority at this time
than problems posed by friable asbestos-containing materials in school buildings and commercial
and industrial uses of asbestos.” The reasoning given in the letter was that:


                                                 21                               Report 2001-S-7
       ...Under a contract to OTS [EPA Office of Toxic Substances], Midwest Research
       Institute examined the asbestos content of vermiculite ore from one mine in Libby,
       Montana, and two mines in Enoree, South Carolina. The study found that the ore
       from the mines does contain asbestos fibers, and that the South Carolina
       vermiculite contains substantially less asbestos than the ore from Montana. The
       study also found that the beneficiation process for separating the vermiculite from
       the ore is effective in reducing the content of asbestos fibers in the vermiculite.
       Analysis of bulk samples by electron microscopy found asbestos fibers were less
       than one percent of the total mass after ore beneficiation. The vermiculite
       industry has been concerned about asbestos and has made significant
       improvements toward worker safety and lowering asbestos content in vermiculite
       products.

At the time, actions by the industry to address health and environmental concerns would have
significantly impacted EPA funding decisions. According to the budget justification for the toxic
substances program in fiscal 1984, working with industry to reduce risk was the first choice.

       ...EPA will take maximum advantage of opportunities to influence industry or
       user groups to reach negotiated agreements for risk reduction so that, risk can be
       reduced in a more timely manner than through more time-consuming rulemaking
       procedures. EPA will quickly document the cases which require no action
       because the risks are already being adequately managed. EPA will reserve
       regulatory controls for those instances where conflicting market forces and other
       factors make negotiated control infeasible.

Changing priorities also impacted EPA’s progress on a NESHAP for contaminant asbestos. As
discussed in Chapter 2, this effort was underway in 1990 when the Clean Air Act was significantly
amended and EPA shifted resources to the maximum available control technology standards.
Consequently, efforts to develop the contaminant asbestos NESHAP ended.

Few EPA resources are currently directed to work on asbestos-related problems. Asbestos does
not directly appear among EPA’s performance goals. Currently, EPA does not have plans or
funds to regulate asbestos as a contaminant. However, EPA considers asbestos as a contaminant
as only a small piece of EPA’s current investigation. EPA also believes the risk management of
asbestos, as a whole, will continue to be part of an ongoing public dialogue with states, industry,
consumers, and other affected stakeholders.

ASBESTOS COORDINATION TEAM MAY ADDRESS SOME BARRIERS

In October 2000, EPA established an Asbestos Coordination Team to provide a comprehensive
overview of actions needed to address asbestos. The Office of Solid Waste and Emergency
Response and OPPTS have responsibility for leading the team. Team leaders indicated their
charge was to:


                                                22                               Report 2001-S-7
        ...Mitigate the risks to human health and the environment as a result of environmental
       exposure to asbestos and to work in collaboration with relevant Federal agencies and
       other stakeholders to:

       ‘      Continue to utilize consistent approaches to assess, cleanup, and reduce risks of
              exposure to asbestos;

       ‘      Implement regulations and develop appropriate policies; and

       ‘      Increase knowledge and enhance awareness by the public and relevant
              stakeholders about asbestos and the activities of the Agency.

The team’s two major goals are to develop a national communications strategy that ensures all of
EPA is providing the same message to the public, and to identify actions that can be taken to
address future asbestos exposures.

After reviewing the team’s initial plans, we provided team members several suggestions to
enhance their effectiveness. The team concurred with our suggestions and plans to implement
them. These suggestions were:

(1) Develop a clear charter that outlines measurable goals for outcomes to include milestones and
target dates.

(2) Elevate the Office of Air’s involvement to a co-chair status with the Office of Solid Waste
and Emergency Response and OPPTS. This will reflect that the Clean Air Act is a key authority
in addressing current and future asbestos issues.

(3) Document decisions in writing, along with meeting minutes, to track the team’s decision-
making process.

(4) Develop a strong Federal council or workgroup with other agencies to help accomplish a
consistent government approach to the contaminant asbestos issue.




                                               23                             Report 2001-S-7
CONCLUSION

We found barriers to EPA actions to protect human health and the environment from asbestos,
asbestos-contaminated vermiculite, and other asbestos-contaminated ore, rock, and mineral
processing sources and facilities. If barriers, such as fragmented authority and jurisdiction
coupled with ineffective communications, had not existed, EPA might have done more to address
asbestos-contaminated vermiculite in the Libby area and other similar situations. However, these
barriers hindered EPA’s actions, and many of the barriers may still exist and affect EPA’s actions
today. We believe that statutory changes may be needed to overcome these barriers and allow a
unified governmental approach toward addressing concerns about asbestos.

We also believe that the Asbestos Coordination Team, with representatives from various EPA
offices, provides a means for effective communications among offices. The Agency’s response
describes technological advancements in analytic capabilities for asbestos. In addition to these
actions, we believe EPA should take additional actions to prevent similar exposures at other mines
and facilities, such as those mentioned in this chapter and at the end of Chapter 2.

RECOMMENDATION

We recommend that EPA document the decisions reached and supporting rationale for the
options at the end of Chapter 2 and any other decisions or options considered.




                                                24                              Report 2001-S-7
                                                                                 APPENDIX 1


                              SCOPE AND METHODOLOGY


Scope

We reviewed past and present Environmental Protection Agency (EPA) activities relative to the
asbestos in Libby. We conducted our review from July 2000 through January 2001. The review
focused on the activities of several EPA offices as discussed below. Even though we examined
some correspondence between EPA and W. R. Grace & Company during the review, we focused
our attentions on EPA activities, and not those of Grace.

We focused our review on EPA activities relative to the statutes under which EPA may regulate
or control asbestos. While EPA currently has no regulations that apply directly to asbestos-
contaminated vermiculite, it does regulate asbestos as a chemical substance. These asbestos
regulations fall primarily under two statutes, the Toxic Substances Control Act (TSCA) and the
Clean Air Act. To a lesser degree, asbestos is regulated under the Clean Water Act, the Safe
Drinking Water Act, and the Resource Conservation and Recovery Act. Asbestos is also a
hazardous substance under the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA). However, CERCLA is not designed to prevent pollution, but rather to
clean up sites contaminated from past use of hazardous substances. We limited our review to
EPA activities under TSCA, Clean Air Act, Resource Conservation and Recovery Act, and
CERCLA.

Scope Limitations

This review was not an investigation or an audit performed in accordance with government audit
standards. Specifically, we did not: perform certain aspects of planning the review, gain an
understanding of the management controls, or evaluate compliance with laws and regulations.
We are providing recommendations to promote accountability; however, we can not substantiate
all of the elements of a finding, such as the cause for certain conditions.

Our work was limited by several major factors, some of which were:

        ‘     A great deal of time has passed--10, 20, and even 30 or more years, in some cases-
              -since the events took place that we were asked to review. While we found much
              information, we believe great gaps exist in documentation and testimonial
              information available. We may not have reviewed or found all information or
              documentation that exists.

        ‘     While we were asked to determine EPA actions, often EPA actions depended upon
              or were influenced by other actions from both government and private sources

                                              25                              Report 2001-S-7
                                                                                    APPENDIX 1

               outside of EPA. We did not confirm information we gathered regarding actions of
               outside sources because we chose to focus our attention on EPA.

       ‘       Where we use information from testimonial sources (interview results), opinions
               may have varied on critical issues, and we are not certain we obtained all
               viewpoints.

       ‘       While we have examined some correspondence between EPA and Grace, we did
               not review any of Grace’s activities.

Despite these limitations, we believe the information contained in this report adequately
summarizes key events.

Methodology

To accomplish our objectives, we conducted site visits, analyzed documents, and interviewed
current and former staff/contractors in the following offices:

  ‘    Office of Prevention, Pesticides, and Toxic Substances
  ‘    Office of Solid Waste and Emergency Response
  ‘    Office of Air and Radiation
  ‘    Office of Enforcement and Compliance Assurance
  ‘    Office of Research and Development
  ‘    Region 8 - Denver, Colorado
  ‘    Region 8 - Montana Operations Office
  ‘    Region 8 - Libby Community Information Center
  ‘    Montana State - Department of Environmental Quality (and its predecessors)
  ‘    Lincoln County, Montana.

We held town meetings in Libby where we encouraged an exchange of information. We also
interviewed Libby citizens who willingly came forward to speak with us.

We made site visits and reviewed documents obtained in conjunction with the current Superfund
asbestos cleanup activity in Libby. We toured the Superfund site located at the former screening
plant of Grace. We also reviewed selected Region 8 documents which were obtained pursuant to
the authority of Section 104 of CERCLA.


We coordinated with the Offices of Inspector General from other Federal agencies which we
believed may have also had a role in addressing the asbestos in Libby. Specifically, we
coordinated with the Offices of Inspector General from the Department of Labor, Department of
Health and Human Services, and the Consumer Products Safety Commission. The Department of

                                                26                               Report 2001-S-7
                                                                                  APPENDIX 1

Labor Office of Inspector General has also conducted a review of the asbestos in Libby focusing
on the activities of the Mine Safety and Health Administration. The Department of Labor Office
of Inspector General issued its report, entitled “Evaluation of MSHA’s Handling of Inspections at
the W. R. Grace & Company Mine in Libby, Montana,” report number 2E-06-620-0002, on
March 22, 2001.




                                               27                              Report 2001-S-7
28   Report 2001-S-7
                                                                                       APPENDIX 2


                     FEDERAL STATUTES RELATED TO ASBESTOS
                           Statute                                       Agency/Jurisdiction
Toxic Substances Control Act (TSCA), 15 U.S.C. §§                 Environmental Protection Agency
2601-2692. Under TSCA, the regulation of asbestos is              (Office of Prevention, Pesticides,
limited to the following three areas:                             and Toxic Substances)

1. Asbestos in Schools: Pursuant to the Asbestos Hazard
Emergency Response Act in 1986, which became part of
TSCA, school districts are required to inspect for
asbestos and abate asbestos hazards. 40 CFR 763.80-99.

2. Worker Protection: Under the authority of TSCA ,
rules cover state and local government workers engaged
in asbestos abatement who fall outside the scope of
OSHA’s worker-asbestos regulations. 40 CFR 763.120-
126.

3. Certain Asbestos-Containing Products: Certain
asbestos-containing products (e.g., insulation, felt, and
paper products containing asbestos), none of which are
associated with vermiculite, were phased out by
regulations. 40 CFR 763.160-179.
Clean Air Act, 42 U.S.C. §§ 7401-7671.                            Environmental Protection Agency
                                                                  (Office of Air and Radiation)
Emissions of asbestos to the ambient air are controlled under §
112 of the Clean Air Act (which declares asbestos a hazardous
air pollutant), 42 U.S.C. § 7412. The regulations
implementing this section set emission standards known as the
National Emission Standards for Hazardous Air Pollutants
(NESHAPs). The NESHAP for asbestos specifies control
requirements for most asbestos emissions, including work
practices to be followed to minimize the release of asbestos
fibers during handling of asbestos waste materials. The
standards apply to: (1) fabricating or manufacturing a variety
of commercial asbestos or asbestos-containing materials, (2)
asbestos mills, (3) removing regulated asbestos-containing
materials from buildings during demolition/renovation, and (4)
disposal of asbestos-containing materials. 40 CFR 61.



                                                   29                               Report 2001-S-7
                                                                                  APPENDIX 2

                    FEDERAL STATUTES RELATED TO ASBESTOS
                          Statute                                    Agency/Jurisdiction
Clean Water Act, 33 U.S.C. §§ 1251-1387.                      Environmental Protection Agency
                                                              (Office of Water)
Asbestos effluent levels from asbestos manufacturing
point sources are regulated. 40 CFR 427.
Resource Conservation And Recovery Act (RCRA), 42             Environmental Protection Agency
U.S.C. §§ 6901-6992.                                          (Office of Solid Waste and
                                                              Emergency Response)
Subtitle C of RCRA establishes standards for the
management of hazardous waste, specifically, the
generation, transport, and treatment and/or storage of
hazardous waste. Asbestos is not regulated as a
hazardous waste under RCRA Subtitle C. Rather, the
disposal of asbestos is regulated as a non-hazardous solid
waste under Subtitle D of RCRA. RCRA Subtitle D
regulations govern solid waste disposal facilities (such as
municipal landfills) and impose general siting and
operating procedures to protect human health and the
environment. While there are no RCRA regulations that
refer to asbestos specifically, RCRA gives states
responsibility for developing specific solid waste
regulations based on the general Federal requirements. A
number of states do have specific requirements for the
disposal of asbestos-containing wastes, and many have
designated the waste as hazardous.
Safe Drinking Water Act, 42 U.S.C. §§ 300f-300j.              Environmental Protection Agency
                                                              (Office of Water)
Asbestos in drinking water is regulated under the Act,
which sets a maximum contaminant level for asbestos. 40
CFR 141.62.




                                               30                             Report 2001-S-7
                                                                                APPENDIX 2

                   FEDERAL STATUTES RELATED TO ASBESTOS
                         Statute                                   Agency/Jurisdiction
Comprehensive Environmental Response, Compensation,         Environmental Protection Agency
and Liability Act (CERCLA or Superfund), 42 U.S.C. §        (Office of Solid Waste and
9601-9675                                                   Emergency Response)

CERCLA provides for the clean up of contamination
from past waste disposal activities. It provides no
cleanup standards but, rather, incorporates by reference
cleanup standards from other environmental laws.
Occupational Safety and Health Act, 15 U.S.C. §§ 651-       Department of Labor
678                                                         (Occupational Safety and Health
                                                            Administration)
The regulations promulgated under this Act are
established to protect workers handling asbestos or
asbestos-containing products. The current regulations
include a maximum workplace airborne asbestos
concentration limit of 0.1 fibers/cc on an 8-hour time
weighted average basis. The standards include
requirements for respiratory protection and other safety
equipment, and work practices to reduce indoor dust
levels. 29 CFR 1910.
Metal and Nonmetallic Mine Safety Act, 30 U.S.C. §§         Department of Labor
801-962                                                     (Mine Safety and Health Admin-
                                                            istration)
The regulations issued under this act limit exposure of
miners to asbestos. The regulation sets limits for
allowable exposure to miners. The standards are 2
fibers/cc on an 8-hour time weighted average basis, and a
ceiling limit of 10 fibers/cc in any 60-minute period. 30
CFR 71.702.
Consumer Products Safety Act, 15 U.S.C. §§ 2051-2083        Consumer Products Safety
                                                            Commission
Two consumer products containing asbestos were banned
-- spackling compounds and artificial embers. 16 CFR
1304, 1305. Neither product is associated with the
vermiculite industry.


                                              31                             Report 2001-S-7
                                                                                APPENDIX 2

                   FEDERAL STATUTES RELATED TO ASBESTOS
                         Statute                                   Agency/Jurisdiction
In 1986, the Consumer Products Safety Commission
issued an enforcement policy that has the effect of
requiring warning labels on certain products that contain
asbestos (such as asbestos paper and gaskets) not
associated with vermiculite. No rulemaking has been
made beyond the policy statement.
Federal Hazardous Substances Act, 15 U.S.C. §§ 1261-        Consumer Products Safety
77                                                          Commission

Asbestos in clothing is banned except for thermal
protection. 16 CFR 1500
Hazardous Materials Transportation Act, 49 U.S.C.           Department of Transportation
§5101,

The transportation of asbestos is controlled by
Department of Transportation standards as to how
asbestos-containing products must be packaged. 49 CFR
173.216. The regulations apply to products that have
commercial value because of their asbestos content.




                                               32                           Report 2001-S-7
                                                                                APPENDIX 3

                                 KEY DOCUMENTS
                   (Dates in italics are draft or interim documents.)
   Date                  Title                                   Key Points
Apr 1973   Asbestos NESHAP issued               First asbestos NESHAP covers emissions
                                                from asbestos-processing facilities, which
                                                included milling, manufacturing, and
                                                fabrication processes that make asbestos
                                                products, as well as demolition.
Oct 1975   Asbestos NESHAP revised              Renovation and disposal of waste were
                                                added to the asbestos NESHAP.
Jan 1977   Asbestos Fibers in Discharges        Sampling was done of water around Grace’s
           from Selected Mining and             Libby mine in June 1975. Tailings included
           Milling Activities                   asbestiform amphibole fibers, but are
                                                contained in tailing ponds. Streams above
                                                the mine have high levels of naturally
                                                occurring asbestos.
Nov 1978   TSCA informational                   Manufacturer of lawn care products tells
           submission from O.M. Scott &         EPA & OSHA that employees have lung
           Sons                                 problems believed to be related to Montana
                                                vermiculite.
Jun 1980   Priority review level 1 -            Report notes that the adverse health effects
           asbestos-contaminated                may extend beyond the workplace.
           vermiculite                          However, exposure and health effects
                                                information is needed, as well as information
                                                on risks related to consumer use of products.
                                                Further, an analysis of pre-regulatory
                                                controls should be started.
Nov 1980   Analysis of Vermiculite              The study identifies adequate substitutes for
           Substitutes                          vermiculite for each of its uses.
Nov 1980   EPA letter to Grace                  EPA notifies Grace that it is conducting an
                                                analysis to determine whether to start a
                                                regulatory investigation to control asbestos-
                                                contaminated vermiculite under TSCA.




                                           33                                 Report 2001-S-7
                                                                               APPENDIX 3

                                KEY DOCUMENTS
                  (Dates in italics are draft or interim documents.)
   Date                 Title                                   Key Points
Feb 1981   Decision Paper for Asbestos-        Adverse health effects among workers are
           Contaminated Vermiculite            believed to be associated with the presence
                                               of asbestos as a contaminant.
                                               Recommendations: Gather more information
                                               (although there are technical problems in
                                               doing so); pursue voluntary controls with
                                               industry; and pursue a rule under TSCA
                                               requiring labeling of asbestos-contaminated
                                               vermiculite.
Aug 1981   Control Techniques Document;        Office of Air and Radiation published in the
           Assessment Control of               Federal Register guidance for local, state and
           Chrysotile Asbestos Emissions       Federal authorities on roadway
           from Unpaved Roads                  contamination.
Sep 1981   Collection, Analysis & Charac-      Sampling was done at the Libby mine in
Sep 1982   terization of Vermiculite           October 1980. Air and bulk samples had
           Samples for Fiber Content and       asbestos (i.e., tremolite or actinolite) in
           Asbestos Contamination              varying amounts. The report also states,
                                               “Because of a shift of priorities within EPA,
                                               the scope of the task was reduced.”
Feb 1982   Exposure Assessment for             Exposure to asbestos-contaminated
Feb 1985   Asbestos-Contaminated               vermiculite is an occupational and consumer
           Vermiculite                         concern, and occurs via ambient air near
                                               point sources. Definitive data were lacking
                                               in many areas of this study.




                                          34                                 Report 2001-S-7
                                                                              APPENDIX 3

                                KEY DOCUMENTS
                  (Dates in italics are draft or interim documents.)
   Date                 Title                                  Key Points
Aug 1982   Disposition Paper for Asbestos- This draft paper concludes there are
           Contaminated Vermiculite        significant adverse health effects associated
                                           with past occupational exposure, probably
                                           from inhalation of asbestos. Some consumer
                                           uses may pose a significant health hazard,
                                           but actual exposure measurements are
                                           currently lacking. The public is generally
                                           unaware that vermiculite is likely to contain
                                           asbestos. TSCA is the proper authority for
                                           addressing the matter. The paper makes five
                                           recommendations: measuring consumer
                                           exposure; possible voluntary programs for
                                           reducing the level of contamination and
                                           labeling of vermiculite containing asbestos;
                                           providing information on related Federal ac-
                                           tions; and testing vermiculite for biological
                                           activity.
Mar 1983   Notice about studies               Grace informs EPA that studies of Libby
                                              workers are underway.
Jun 1983   Acting Assistant Administrator     EPA sends a letter explaining why asbestos-
           for Pesticides and Toxic           contaminated vermiculite was a lower
           Substances (predecessor to         priority for regulation under TSCA,
           OPPTS) letter to Congressman       “... asbestos-contaminated vermiculite is
                                              considered a lower priority at this time than
                                              problems posed by friable asbestos-
                                              containing materials in school buildings and
                                              commercial and industrial uses of asbestos.”
Mar 1984   EPA internal memo                  Office of Research and Development memo
                                              indicated there was EPA oversight regarding
                                              asbestos. It discusses limits of some
                                              microscopes and the “absurdity” of the “no
                                              visible-emission” requirement for the
                                              asbestos NESHAP.




                                         35                                 Report 2001-S-7
                                                                                APPENDIX 3

                                KEY DOCUMENTS
                  (Dates in italics are draft or interim documents.)
   Date                  Title                                  Key Points
Nov 1984   Emerging Chemical Project           OPTS (predecessor of OPPTS) staff
           Asbestos                            contacted a variety of Agency personnel in
                                               an attempt to provide Region 8 with
                                               information concerning the hazards
                                               associated with the use of certain asbestos
                                               substitutes. The exercise identified a 1980
                                               report (PRL -1 Report) that stated “... there
                                               is evidence that asbestos is present in
                                               vermiculite obtained from W. R. Grace &
                                               Company’s Libby, Montana, mine, a major
                                               domestic supplier of vermiculite, and that the
                                               health problems experienced by the
                                               employees of one processor of vermiculite
                                               from the Libby mine (O. M. Scott & Sons)
                                               are comparable with those associated with
                                               asbestos exposure.”
Mar 1986   McGill University studies           Grace provides EPA with the results of the
                                               McGill University studies on mortal-
           [Note: Libby workers were           ity/morbidity. The reports concluded that
           briefed on these results in Sep-    there is increased risk of illness based on
           tember 1985.]                       exposure. The longer the exposure, the
                                               more likely there will be health problems.
Oct 1986   Notification to EPA                 Grace notified EPA that it was a private land
                                               disposal site. EPA assigned the facility an
                                               identification number.
Mar 1987   Asbestos In Earth Materials         The Office of Air Quality and Planning
                                               Standards report evaluated 88 earth
                                               materials for the possibility that they
                                               contained asbestos. Vermiculite was one of
                                               four that had a high possibility of containing
                                               asbestos.
May 1987   Asbestos Contaminated Roads         A large portion of the roads across the coun-
           As A Nationally Significant         try may have some form of asbestos
           Issue                               contamination due to the fact that serpentine


                                          36                                 Report 2001-S-7
                                                                               APPENDIX 3

                                KEY DOCUMENTS
                  (Dates in italics are draft or interim documents.)
   Date                 Title                                   Key Points
                                               rock or similar material is being used as an
                                               aggregate when the roads are constructed.
                                               Initiation of a Superfund action to address a
                                               potential release of asbestos from these
                                               roads could set a precedent. Contaminated
                                               roads must be considered a nationally
                                               significant issue and actions to address these
                                               roads will require the concurrence of the
                                               Assistant Administrator for Solid Waste and
                                               Emergency Response.
Mar 1989   Guidance on Non-National            The guidance identifies non-National
           Priorities List Removal Actions     Priorities List removal actions that may be
           Involving Nationally Significant    nationally significant or precedent setting and
           or Precedent Setting Issues         establishes procedures for requesting
                                               Headquarters concurrence. Removals
                                               involving asbestos when it is the principal
                                               contaminant of concern require
                                               Headquarters concurrence because action
                                               levels for response have not yet been set.
Jan 1990   Monthly Project Status              The Preliminary Assessment Branch of
           (for contaminant asbestos)          Office of Air Quality Planning and Standards
                                               “feels that further investigation in
                                               contaminant vermiculite is necessary.”
May 1990   Environmental Asbestos              EPA establishes a method under Superfund
           Assessment Manual -                 for determining asbestos in ambient air.
           Superfund Method for the
           Determination of Asbestos in
           Ambient Air, Interim Version
Sep 1991   Health Assessment Document          The number of workers exposed was quan-
           for Vermiculite                     tified. Non-occupational exposure to
                                               vermiculite is high. The weight of evidence
                                               for asbestos-contaminated vermiculite is
                                               sufficient to show a causal relationship for
                                               increased lung cancer in miners and millers.


                                          37                                 Report 2001-S-7
                                                                                 APPENDIX 3

                                KEY DOCUMENTS
                  (Dates in italics are draft or interim documents.)
   Date                 Title                                     Key Points
Mar 1992   State Inspection Report of            The report noted that demolition had been
           Grace Mine in Libby                   underway at the site for 1½ years. Samples
           (based on a citizen complaint)        were collected and pictures taken. The
                                                 inspectors observed what they believed was
                                                 asbestos-contaminated materials, and
                                                 concluded that the facility appears to be out
                                                 of compliance with 40 CFR 61.145(b),
                                                 which requires notification.
Jul 1992   Published list of industrial          Asbestos processing is listed as one of the
           source categories for hazardous       source categories for regulation under the
           air pollutants                        1990 amendments to the Clean Air Act.
Sep 1993   Documenting an Asbestos               The guidance notes that inspectors should
           CERCLA Violation                      evaluate the applicability of CERCLA during
                                                 asbestos NESHAP inspections. It is in-
                                                 tended to make inspectors aware of how
                                                 CERCLA may apply to asbestos NESHAP
                                                 projects and to provide guidelines for
                                                 gathering evidence when a potential asbestos
                                                 CERCLA violation is encountered.
Sep 1994   Department of Justice Press           Grace agreed to pay a $510,000 penalty to
           Release                               settle a Clean Air Act complaint that alleges
                                                 the company improperly demolished several
                                                 asbestos-contaminated buildings at its Libby
                                                 mine.
Nov 1994   Citizen letter to EPA Region 8        The letter reports that a home/business with
           official in Denver, CO                a child’s swing set in the yard is located on
                                                 contaminated land. The citizen had written
                                                 “a letter to those living their (sic), to warn
                                                 them of hazard to asbestos exposure and told
                                                 them if they have any doubts to contact
                                                 EPA.” The letter also reported concerns
                                                 about dust from the nearby road being a
                                                 hazard. The citizen requested
                                                 confidentiality.


                                            38                                 Report 2001-S-7
                                                                                APPENDIX 3

                                 KEY DOCUMENTS
                   (Dates in italics are draft or interim documents.)
   Date                  Title                                   Key Points
Apr 1995   Memorandum from Region 8             The State of Montana “...inspected the
           official to citizen                  former W. R. Grace property on January 31,
           (responding to the letter of         1995. During their inspection they found no
           November 1994)                       apparent violations of the Clean Air Act.
                                                Neither the State nor EPA plan any action
                                                based on this inspection.”
Nov 1995   Revision to published list of        Asbestos processing facilities were removed
           industrial source categories         from a list of source categories that may be
                                                regulated under the 1990 amendments of the
                                                Clean Air Act.
Nov 1996   Citizen letter to EPA official in    The letter thanked EPA for an award
           Washington, DC                       received because of a referral to EPA
                                                regarding a NESHAP violation. It reported
                                                that a family with children had moved onto a
                                                site that was contaminated with asbestos.
Jun 2000   Superfund Pollution Report           A removal action starts in Libby.
Aug 2000   Sampling and Analysis of             Testing of 54 gardening products that con-
           Consumer Garden Products             tained vermiculite showed that a few
           That Contain Vermiculite             contained asbestos, but (with 6 exceptions)
                                                the risk of exposure was minimal.
Dec 2000   Mortality From Asbestosis in         The Agency for Toxic Substances and
           Libby                                Disease Registry study of death certificates
                                                showed that, for the 20-year period re-
                                                viewed, mortality in Libby from asbestos was
                                                about 40 to 60 times higher than expected.
                                                Mesothelioma mortality was also elevated.




                                           39                                 Report 2001-S-7
40   Report 2001-S-7
                                                                                    APPENDIX 4

                       AGENCY RESPONSE AND OIG COMMENTS



                                         March 27, 2001


MEMORANDUM

SUBJECT: Response to OIG Draft Report: “EPA Actions Concerning Asbestos-
         Contaminated Vermiculite in Libby, Montana”

FROM:       Michael H. Shapiro      /signed/
            Acting Assistant Administrator
              for Solid Waste and Emergency Response

TO:        Frances E. Tafer, Audit Manager
           Headquarters Audit Division


        This memorandum and the attachment transmit the consolidated response from the Offices
of Solid Waste and Emergency Response (OSWER), Research and Development (ORD),
Prevention, Pesticides, and Toxic Substances (OPPTS), and Air and Radiation (OAR) on the
factual accuracy of the information and the feasibility of the suggestions contained in the subject
Office of Inspector General (OIG) draft report. The Office of Enforcement and Compliance
Assurance and Region 8 reviewed the report, and they have no comments. We appreciate the
opportunity to respond to this report. We also wish to express our thanks to the Headquarters
Audit Division for the amount of time and hard work they invested in this audit process.

       Each office has provided comments on their respective sections, as described below. The
OAR provided their comments on the attached OIG draft report in bold and italicized text. [OIG
note: The draft report referred to here is not included in this final report. Thus, many of
the references to page numbers mentioned in the Agency’s response will not correspond
with the page numbers in this report. We summarized and addressed these comments in
this Appendix.]

I. General/Specific Comments

   A. OSWER Comments




                                                41                              Report 2001-S-7
                                                                                    APPENDIX 4

        1. We find the report to be somewhat unclear in its suggestions to the Agency. The
report concludes that “ineffective communication” has been a problem for the Agency regarding
asbestos. It would be helpful if the report would include specific suggestions for how the Agency
should address this issue.

       OIG Comment: We agree. We suggest that the Agency focus on improved
       communication among programs on related issues such as asbestos. Agency officials
       have already agreed to address specific suggestions in the section of the report
       entitled, “Asbestos Coordination Team May Address Some Barriers.” In recent
       discussions with Agency officials, OSWER staff suggested the creation of an
       Assistant Administrator level committee, similar to the “ONE” (OSHA, NIOSH, and
       EPA) committee, to deal with communication regarding waste issues.

        2. Page (i) - The report suggests that EPA should “assess and address, as appropriate,
other asbestos-contaminated mines and related facilities similar but unrelated to Libby.” More
specificity in this suggestion would be helpful to the Agency.

       OIG Comment: We agree. We added more specific language to the report to help
       clarify the types of facilities, such as beneficiation, exfoliation, textile, and
       manufacturing plants, that should be assessed and addressed. We also discussed
       this issue with OSWER staff.

        3. Page (i) - It is unclear what criteria the OIG is suggesting that EPA should use to
determine whether EPA should pursue a NESHAPs, ambient air standard or TSCA designation
for asbestos.

       OIG Comment: We agree. We believed that after EPA completes its assessments of
       the facilities mentioned above, it would have the criteria needed to evaluate the need
       for regulation. Also, health studies, such as that being currently conducted by
       ATSDR, and other data provided by other agencies will help clarify the criteria to
       be used in the Agency’s evaluation.

        4. Page 7 - What is the reference for the 1982 draft disposition paper that is mentioned in
the second paragraph.

       OIG Comment: The August 1982 Draft “Disposition Paper for Asbestos-
       Contaminated Vermiculite,” referenced in Appendix 3 of this report, concludes that
       there are significant adverse health effects associated with past occupational
       exposure, probably from inhalation of asbestos.

       5. Page 9 - Same comments as on page (i), above.


                                                42                               Report 2001-S-7
                                                                                     APPENDIX 4

       OIG Comment: Please see responses to comments on page (i) above.

        6. Page 20 - The conclusions given on the bottom of this page are vague and unclear. It
is not possible to determine what specific actions EPA should take in response to this conclusion.

       OIG Comment: We agree. We have added specifics into the report at appropriate
       places in order to provide more details. Additionally, we clarified our draft report
       conclusions in this report in order to match our review results more closely to the
       suggestions which we have made into recommendations. Also, we identified the
       specific actions EPA may take in the recommendation sections in this report.

        7. The report was written with few specifics. There are areas where the OIG indicates
that the EPA changed priorities (Executive Summary pg1), but did not provide any citation to
support this finding. This statement is repeated several times throughout the report.

       OIG Comment: We agree and are providing additional detail here and in the
       report. In Appendix 3, the OIG provides a detailed list of the key documents
       identified in this report. Specifically, the September 1982 report entitled,
       “Collection, Analysis, and Characterization of Vermiculite samples for Fiber
       Content and Asbestos Contamination” states there was a shift in priorities at EPA
       and the scope of this study was reduced.

       Also, EPA sent a June 1983 letter to a congressman explaining why asbestos-
       contaminated vermiculite was a lower priority than problems posed by asbestos in
       schools and commercial and industrial uses of asbestos.

  B. ORD Comments

        1. The draft report is reasonable, and we concur with the suggestions. We have several
detailed comments which will sharpen the technical accuracy of the report relative to the scientific
aspects of asbestos. These detailed comments are included in the attached draft report (pg21).

       OIG Comment: We reviewed ORD comments and included appropriate changes in
       this report.

C. OPPTS Comments

        1. Since our joint request in June of 2000 asking for your review of this issue, OPPTS
has implemented many of the suggestions in your report and continues to take further steps to
help resolve the situation in Libby, Montana.



                                                43                               Report 2001-S-7
                                                                                       APPENDIX 4

       OIG Comment: We commend EPA for its efforts to respond to our suggestions with
       respect to the Asbestos Coordination Team.

II. Comments on Factual Accuracy

A. OSWER Comments

         1. Chapter 2 - Conclusions and Suggestions - The OIG states that “we believe that EPA
should assess and address, as appropriate, any other asbestos-contaminated mines(s) and related
facility similar to Libby.” This statement is confusing to OSWER since we provided the OIG with
our plan to screen all of the known Libby asbestos-vermiculite processing facilities, have placed
this screening (which includes necessary removal actions) as a high priority for OSWER and the
regions, and have inspected all of the remaining vermiculite mines in the United States. In the
same chapter, the OIG report notes these actions. We believe that the Superfund program has
met its requirements with our nationwide screening and cannot see what other actions we can
pursue under CERCLA with the current base of information.

       OIG Comment: We disagree that the Superfund program has met its requirements
       with regard to the nationwide screening. We believe that there may be additional
       areas similar but unrelated to Libby that may be at risk for contaminant asbestos
       exposure, such as beneficiation, exfoliation, textile, and manufacturing plants, that
       should be assessed and addressed. We understand from discussions with OSWER
       officials that this effort will take significant resources. Also, we understand that
       such an effort is not consistent with standard operating procedures in that the
       Superfund program does not typically conduct an active site discovery program.
       We believe that the Superfund program, along with other offices in EPA, can
       partner with other Federal organizations and states to leverage resources to assess
       asbestos or asbestos-contamination. Resources may be more easily obtained and
       communication could be more easily facilitated through top-level interactions.
       These are some of the reasons we have elevated our recommendations in this report
       to the level of the Administrator.

        2. Chapter 3 - Ineffective Communications Within EPA - This chapter describes
communications from various state offices and people in the Libby, Montana area to EPA. The
OIG has described these and the resulting activities as ineffective communication within EPA. A
detailed reading supports the finding that communications were fragmented, but hardly
ineffective, if the letters were relayed to the proper office. The referenced 1994 letter did result in
a State of Montana inspection of the facility because the potential violations were airborne
particulates regulated by OAQPS.

       OIG Comment: We agree that communication was fragmented in that the citizen
       letters stayed within one office at EPA. However, the letters should have been

                                                  44                               Report 2001-S-7
                                                                                    APPENDIX 4

       referred to the Superfund office and were not. Thus, communication was ineffective
       because issues needed to be addressed by multiple offices.

        This chapter also describes the limitations to the existing science but neglects to include
the improvements being addressed by OERR and Regional scientists. OERR and Region 8 have
begun a program to improve analytic capability for asbestos fibers using Scanning Electron
Microscopy (SEM). SEM methods for asbestos and vermiculite were developed by the US
Geologic Survey (USGS). EPA offices, in conjunction with the USGS and the National Institute
of Standards and Technology (NIST), are working to develop a national sample of bulk asbestos,
which can be measured using SEM techniques. OERR has recently concluded a series of
laboratory audits for commercial laboratories that have existing analytical capability for asbestos
using Phase Light Microscopy (PLM), Phase Contrast Microscopy (PCM) or Transmission
Electron Microscopy (TEM) techniques. These audits will reduce the number of errors for
samples of bulk material and airborne emissions that need to be analyzed as a result of the on-
going efforts at Libby and elsewhere in the country. Finally, in response to the comment on
Health Effects Data, it should be noted that OSWER and ORD are sponsoring an International
health Conference on Asbestos in May 2000. This conference is designed to be the kickoff of the
reassessment of the IRIS data base and will target many of the issues surrounding asbestos
toxicity.

       OIG Comment: We commend EPA for its efforts to address the limitations to
       existing science, which is one of the barriers mentioned in our report.

        While not specifically an EPA issue, it should be noted that the Agency for Toxic
Substances and Disease Registry (ATSDR) has completed an initial phase of study of lung disease
within the Libby community. The results of this study will have major results on the calculation of
risk from exposure to asbestos in general and perhaps the tremolite asbestos particle in particular.

       OIG Comment: We agree and have added this information to the Background
       section of this report.

        The concluding paragraph in this chapter again recommends that EPA consider additional
mitigation to prevent similar situations as those found in Libby. We restate our argument that
Superfund has undertaken a national effort to uncover any other “Libby” sites through its national
screening program.

       OIG Comment: We agree that the Superfund program has undertaken a national
       effort to uncover any other “Libby” sites through its national screening program.
       We believe that there may be additional areas similar but unrelated to Libby that
       may be at risk for contaminant asbestos exposure, such as beneficiation, exfoliation,
       textile, and manufacturing plants, that should be assessed and addressed. For a
       more complete response, please see our response to A. 1. above.

                                                45                               Report 2001-S-7
                                                                                     APPENDIX 4

B. OPPTS Comments

       1. Page (i) - Executive Summary (Results in Brief: first para.) - It would be helpful for
the OIG to clarify the relative authority and responsibility of EPA and MSHA with regard to mine
workers.

       OIG Comment: We agree that it would be helpful to clarify the relative authority
       and responsibility of EPA and MSHA with regard to mine workers and have added
       more information here. We also added this information regarding EPA’s and
       MSHA’s authority and responsibilities in Chapter 3 under the section entitled
       “Fragmented Authority and Jurisdiction” and in Appendix 2 of this report.

       The Department of Labor regulates occupational and construction activities
       involving asbestos through OSHA, under the Occupational Safety and Health Act,
       and the mining of asbestos through the Mine Safety and Health Administration,
       under the Mine and Nonmetallic Mine Safety Act. However, the authority of the
       Department of Labor does not cover state and local government employees. Thus,
       EPA regulates asbestos construction activities when state and municipal employees
       are doing the work.

         2. Page (i) - Executive Summary (Results in Brief: second para.) - Addressing potential
risks from high levels of asbestos in schools and in products was given high priority, since there
was evidence that children and other sensitive sub-populations could be exposed. Addressing
potential risks from low levels of asbestos in vermiculite products was not viewed as critical, since
EPA believed that asbestos exposure in these products was relatively low and because the science
was still being developed to determine if these low levels presented a risk.

       OIG Comment: We acknowledge your comment and believe we addressed this
       information in the draft and this report.


        3. Page 2 - Background (second para.) - All asbestos is naturally occurring and, based on
currently available data, EPA believes that all forms present comparable hazard. There is,
however, an ongoing science review of tremolite asbestos.

       OIG Comment: We acknowledge your comment and are aware that EPA is further
       studying this issue.

        4. Page 6 - Toxic Substances Control Act (TSCA) (second para.) - While EPA may
regulate occupational safety and health, the Department of Labor has primacy on these matters
and EPA must coordinate its efforts with them.


                                                 46                               Report 2001-S-7
                                                                                 APPENDIX 4

       OIG Comment: We agree and believe that this is a reason that effective
       communication (within EPA and among Federal agencies) is necessary.

        5. Page 7 - Toxic Substances Control Act (Additional Actions; first para.) - The Libby
mine was in operation from the 1920s and exposure by the 1980s had already created a high level
of asbestos-related disease. The occupational exposures at the mine in Libby were well known
prior to 1982 and in fact prior to 1976 when TSCA was enacted. Consequently, the
recommendations in EPA’s draft August 1982 disposition paper most likely would not have
helped to address the situation in Libby.

       OIG Comment: We disagree and believe that implementing the recommendations
       in this disposition paper would have produced information useful in pursuing
       regulation under TSCA, which would have potentially benefitted the citizens of
       Libby. For example, the first recommendation was to perform a study to measure
       the level of consumer exposure to asbestos in selected products, which is what EPA
       did with regard to gardening products in the year 2000. We believe that if such a
       study had been completed in the early 1980s, the level of consumer exposure would
       have been higher than that found in the 2000 study. We believe this because in the
       1980s there was more vermiculite from Libby on the market (i.e., the Libby mine
       provided 80% of the supply) and it had substantially more asbestos in vermiculite
       than from other sources. Thus, the tested level of consumer exposure to asbestos
       from vermiculite would have been higher. Finally, the vermiculite from Libby was
       found in only one of the samples in the 2000 study.

        6. Page 11 - Fragmented Authority and Jurisdiction (second para.) - EPA’s regulation of
asbestos construction work by state and municipal employees does not overlap OSHA
jurisdiction, since OSHA was not given the statutory authority to regulate state and local
government employees. EPA’s rule applies where OSHA-approved standards do not exist. In
addition, EPA regulates asbestos construction activities performed by state and municipal
employees, not uses.

       OIG Comment: We agree and added the following information regarding
       regulation of construction work in Chapter 3 under the section entitled
       “Fragmented Authority and Jurisdiction” and in Appendix 2 of this report.

       The Department of Labor regulates occupational and construction activities
       involving asbestos through OSHA, under the Occupational Safety and Health Act,
       and the mining of asbestos through the Mine Safety and Health Administration,
       under the Mine and Nonmetallic Mine Safety Act. However, the authority of the
       Department of Labor does not cover state and local government employees. Thus,



                                               47                             Report 2001-S-7
                                                                                     APPENDIX 4

       EPA regulates asbestos construction activities when state and municipal employees
       are doing the work.

       7. Page 12 - Different Government Standards for Asbestos (chart) - The chart should
include EPA’s Asbestos Worker Protection rule, which incorporates the OSHA permissible
exposure limit of 0.1 f/cc. The Asbestos Hazard Emergency Response Act (AHERA) regulations
have an air clearance (reoccupancy) standard of either 0.01 f/cc or not statistically different from
outdoor air, depending on the analytical method.

       OIG Comment: We agree and have made the correction to the chart and clarified
       that the AHERA regulation is for clearance only.

        8. Page 17 - Health Effects Data - Prior to the existence of TSCA, there were some
78,000 chemicals (existing) on the market, including asbestos. EPA has and may require test data
on these chemicals under section 4 of TSCA. Chemicals manufactured after TSCA was enacted
(new chemicals) must submit data to the EPA before they may be manufactured or distributed in
commerce (section 5 of TSCA). If a manufacturer or processor discovers that a substance may
pose a substantial risk to health or the environment, they are required to report under section 8(e)
of TSCA.

       OIG Comment: We agree with your comment and, exclusive of the first sentence,
       the information is paraphrased in the “Health Effects Data” section in this report
       without reference to the TSCA section numbers.

       9. Page 19 - Other Priorities (last para.) - Asbestos as a contaminant is only a small piece
of EPA’s investigation. The risk management of asbestos, as a whole, will continue to be part of
an ongoing public dialogue with states, industry, consumers, and other affected stakeholders.

       OIG Comment: We acknowledge your comment and added it to the “Other
       Priorities” section of Chapter 3.

       10. Page 20 - EPA Established Asbestos Coordination Team (ACT) (last para. #4) - The
ACT will work to resolve conflicts within different regulations, but statutory conflicts are much
more difficult to resolve.

       OIG Comment: We acknowledge your comment and agree that statutory conflicts
       may be harder to resolve. However, statutory changes may provide for a more
       unified governmental approach toward addressing concerns about asbestos.

III. Comments on Feasibility of Suggestions



                                                 48                              Report 2001-S-7
                                                                                     APPENDIX 4

    A. OPPTS Comments

       1. OAR is in a better position than OPPTS to comment on the feasibility of the first two
suggestions that involve revised air standards for asbestos. The intent of the third suggestion that
asbestos be designated as a contaminant under TSCA is not clear, since there is no TSCA
contaminant list.

       OIG Comment: We agree that the third suggestion was not clear and we revised the
       suggestion from the draft report and made it a recommendations in this report.

IV. Comments on Barriers EPA Encountered

    A. OPPTS Comments

         1. In addition to the establishment of the ACT, whose charge is correctly characterized in
the draft report, additional activities are being developed to address the barriers identified in
Chapter 3 of the draft report. These include: 1) through the ONE (OSHA, NIOSH, and EPA)
committee, keeping NIOSH and OSHA informed of our current activities associated with
vermiculite home attic insulation; 2) regional conference calls (both toxics and air); and 3) helping
to organize and participate in a national conference addressing the limitations and strengths of the
current analytical methods for measuring and assessing the risks of asbestos.

       OIG Comment: We commend EPA for its efforts to address the communications
       and science barriers mentioned in our report.

        Again, we are committed to help resolve the situation in Libby, Montana. We appreciate
the effort the OIG has put into this report. If you have any questions and/or require additional
information, please contact the following persons on their respective program areas: Johnsie
Webster, OSWER (202-260-4475); Lek Kadeli, ORD (202-564-6700); Tom Simons, OPPTS
(202-260-3991); and Debbie Stackhouse, OAR (919-541-5354) or Jeffrey Clark, OAR (919-541-
5619).

Several comments and changes were incorporated into a copy of our draft report, which is
not included in this report. We reviewed all comments, made appropriate changes to the
report, and addressed the following comments below.

V. OAR and ORD Draft Report Comments and Additional Information




                                                 49                               Report 2001-S-7
                                                                                     APPENDIX 4

OAR Comment: Did the IG make an attempt to review the Grace Commission’s records? Several
decisions arising from that commission are presented here, and yet are not tied together for the
purposes of this report.

       OIG Comments: The Office of Inspector General did not review the Grace
       Commission’s records. Limitations on the scope of our review are listed in
       Appendix 1.

The Agency also provided additional information to various sections of our draft report.
We reprinted selections below.

Additional Information:

Chapter 1, Background, Libby and the Grace Mine

The Agency for Toxic Substances and Disease Registry (ATSDR) conducted a medical testing
program between July and November, 2000 to identify the asbestos-related health effects of
participants exposed to asbestos from the vermiculite mine near Libby, Montana, and to refer
these individuals for additional medical evaluation. Other important goals of the program are to

(a)    provide EPA with information needed to identify and eliminate current exposures to
       asbestos in the community;
(b)    identify the types of illnesses experienced by participants exposed to asbestos in order to
       better inform local physicians; and
(c)    provide the local health care community with an estimate of the additional resources
       necessary to address health care needs in the Libby area during the next 10–20 years.

Preliminary findings of federal health screenings over the summer showed 627 of 1,078 people
tested positive for possible asbestos-related illness.

To date, the toxicity of vermiculite has not been completely studied; however, it is believed that
the toxic effects associated with vermiculite exposure are related to the presence of asbestiform
minerals present in vermiculite ore and released during mining and processing operations. Ore
taken from the Libby mining operation has been documented to be contaminated with asbestiform
minerals, including tremolite, actinolite, and others.

Inhalation of asbestos fibers from asbestiform minerals suspended in air can result in lung diseases,
such as asbestosis, mesothelioma, and lung cancer. The risk of developing any one of these
diseases depends upon many factors; including the type of fiber, level of exposure, duration of
exposure, and smoking history of the exposed individual.



                                                 50                               Report 2001-S-7
                                                                                       APPENDIX 4

The preliminary results of ATSDR study showed that the incidence of asbestosis in the Libby
community was approximately 40-60 times higher than the National average. The report included
only 1,078 participants, or 18% of the total number of participants in the medical testing program.
Final results of the study may vary from these preliminary results.

Chapter 3, Fragmented Authority and Jurisdiction, Multiple Federal Agencies Regulate
Various Aspects of Asbestos

During the early 1980's EPA began working on a comprehensive revision to the rule. At that
time, they were required to do the revision under the risk analysis method. This method was
required by the Vinyl Chloride Court Case Decision, which ruled that any revision by EPA that
would increase the stringency of the standard would have to undergo a risk analysis and have
documentation of the benefit of the change. Since EPA did not already have the supporting
documentation for a risk benefit analysis, management decided to wait until the new Clean Air
Act was revised so that further action would not fall under the requirements imposed by the Vinyl
Chloride decision. In the meantime, the Regions wanted EPA to codify determinations into the
rule revision for demolition and renovation practices. EPA made that revision by clearly stated in
the preamble that they were only making administrative changes and that not doing anything that
would increase the stringency of the standard, since to do so would trigger a risk-based rule.

Chapter 3, Limitations of Science and Technology, Identification of Asbestos

Asbestos minerals fall into two groups or classes—serpentine and amphibole. Serpentine asbestos
contains the mineral chrysotile. There are 2 distinct minerals in the amphibole class:
anthophyllite and crocidolite, and 2 mineral series in the amphibole class: the actinolite-tremolite
series and the cummingtonite-grunerite series (amosite). Some minerals may occur in both
fibrous and non-fibrous habits, such as minerals in the tremolite-actinolite series and in the
cummingtonite-grunerite series. The fibrous form of a mineral in the cummintonite-grunerite
series is amosite. Minerals in the tremolite-actinolite series that are fibrous are not referred to by
a distinct name implying a fibrous habit. If a mineral in the tremolite-actinolite series is non-
fibrous, it does not cleave (easily break) along the planes of the fibers (a fibrous “habit”), but
cleaves in fragments. The broken non-fibrous minerals in the tremolite-actinolite series are called
“cleavage fragments”, an issue that is discussed later in this report.




                                                  51                               Report 2001-S-7
52   Report 2001-S-7
                                                                                  APPENDIX 5

                                  REPORT DISTRIBUTION

Inspector General
Assistant Inspector General for Audit
Assistant Inspector General for Program Evaluation
Assistant Inspector General for Planning, Analysis, and Results
Assistant Inspector General for Human Capital
Counsel to the Inspector General
Media and Congressional Liaison
Writer/editor

Acting Assistant Administrator, Office of Solid Waste and Emergency Response
Acting Assistant Administrator, Office of Prevention, Pesticides, and Toxic Substances
Acting Assistant Administrator, Office of Air and Radiation
Acting Assistant Administrator, Office of Research and Development
Acting Assistant Administrator, Office of Enforcement and Compliance Assurance
Acting Assistant Administrator, Office of Water
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Communications, Education, and Media Relations

Acting Regional Administrator for Region 8
Region 8 Public Affairs Office
Region 8 Office of Regional Operations
EPA Information Center, Libby, Montana

Audit Liaison, Office of the Administrator
Audit Liaison, Office of Solid Waste and Emergency Response
Audit Liaison, Office of Prevention, Pesticides, and Toxic Substances
Audit Liaison, Office of Air and Radiation
Audit Liaison, Office of Research and Development
Audit Liaison, Office of Enforcement and Compliance Assurance
Audit Liaison, Office of Water

Governor, State of Montana
Director, Department of Environmental Quality, State of Montana
Community Advisory Group, Libby

Senators and Congressman, State of Montana




                                               53                              Report 2001-S-7
